TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Actions Are Needed to Control Risks With
                    International Transactions Reported on
                        Corporate Income Tax Returns



                                           May 30, 2008

                              Reference Number: 2008-30-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:

 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 30, 2008


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Control Risks With
                             International Transactions Reported on Corporate Income Tax Returns
                             (Audit # 200730IE028)

 This report presents the results of our review of examination referrals to international specialists
 (specialists). The overall objective of this review was to assess the timeliness of requesting and
 delivering the assistance of specialists in corporate examinations that have international features.
 We conducted this review as part of our planned Fiscal Year 2008 audit coverage.

 Impact on the Taxpayer
 Promoting voluntary tax compliance fairly and equitably is of paramount importance to the IRS.
 However, some in the taxpaying public could perceive inequities in the processes used to select
 and examine corporate tax returns because smaller corporations reporting international
 transactions are far less likely to be scrutinized than larger ones, even when the same types of
 transactions and similar dollar amounts are involved.

 Synopsis
 The compliance risk associated with international transactions continues to grow and to present
 tax administration challenges as companies both small and large expand operations across
 international boundaries. The tax issues associated with the expansion involve significant
 potential tax revenues and involve complex arrangements between related companies operating
 in a multinational environment. Because of these and other challenges, the IRS has specifically
 trained specialists to evaluate the risks posed and, if necessary, examine the tax issues to ensure
 that companies operating in a multinational environment are reporting and paying the proper
 amount of taxes.
                         Actions Are Needed to Control Risks With International
                        Transactions Reported on Corporate Income Tax Returns



Specialists generally do not have overall responsibility for the examination of a tax return.
Therefore, examiners throughout the IRS have traditionally been required to manually request
their assistance through the Specialist Referral System (SRS) when assigned to examine a tax
return with international features. In Fiscal Years 2002 through 2006, IRS statistics show that
specialists nationwide spent about 1.2 million hours on corporate examinations and
recommended approximately $8.7 billion in adjustments to the taxable incomes and credits
reported on corporate income tax returns. This represents nearly one-third of the estimated
$27.5 billion in total recommended adjustments from these corporate examinations. The
seemingly high return from the specialists’ efforts did not come at the expense of increasing
cycle time,1 which indicates that their assistance is generally requested and delivered in a timely
manner.
To ensure that specialists are involved in evaluating the risk with international transactions
reported on corporate tax returns, the Large and Mid-Size Business (LMSB) Division uses an
array of procedures and practices (management controls). For example, the Division enhanced
its referral capabilities by linking its Workload Identification System2 with the SRS, so that
beginning in Fiscal Year 2005 many corporate tax returns with international tax transactions
were automatically delivered to examiners and specialists electronically through the IRS Intranet.
Despite this automated feature, the enhancement is leaving a gap between the number of referrals
made to specialists and the number that should be made according to IRS procedures. Also, a
majority of tax returns not referred involved examinations that were started in one tax year and
expanded to other years when corporate tax returns were ordered by and forwarded to examiners.
In contrast to the control processes in the LMSB Division, those in the Small Business/Self-
Employed (SB/SE) Division primarily rely on first-line managers to ensure that the examiners
they supervise manually request the assistance of specialists through the SRS. These managers
can also have broad spans of control and many other administrative demands on their time. As a
result, a significant number of high-risk international tax issues that should be scrutinized for
examination are missed. We reconciled to the SRS the corporate tax returns containing
transfer-pricing transactions and/or foreign tax credits exceeding $25,000 that were listed in the
SB/SE Division closed examination files for the period October 2005 through December 2006.
While the SB/SE Division closed just 157 corporate tax returns with these international features
during the period, the assistance of a specialist was not requested in 143 of the tax returns
(91 percent) as required.
On a larger scale, the limited number of corporate tax returns reporting foreign tax credits and/or
transfer-pricing transactions found in the SB/SE Division closed examination files raises
questions about how well the Division identifies and selects for examination corporate tax
returns with international features. IRS statistics show that the SB/SE Division annually receives

1
  The IRS defines cycle time as the number of days that elapse between the dates tax returns are filed and
examinations are completed.
2
  This application is primarily used by analysts to identify and send returns to first-line managers.
                                                                                                             2
                     Actions Are Needed to Control Risks With International
                    Transactions Reported on Corporate Income Tax Returns



almost twice as many corporate tax returns reporting international transactions as the LMSB
Division. However, the corporate tax returns received by the SB/SE Division are far less likely
to be examined, even when significant dollars are involved in the transactions. A high-ranking
SB/SE Division official advised us that plans are underway to improve the way in which
corporate returns with international features are identified and selected for examination. Until
these changes have taken place, the IRS risks missing a significant number of high-risk
international tax issues that should be examined.

Recommendations
We recommended that the Deputy Commissioner, International, LMSB Division,
1) re-emphasize to Examination function personnel the situations that require use of the SRS to
manually request the involvement of a specialist and 2) initiate an evaluation to help identify and
document the full range of challenges the LMSB Division faces with automating the specialist
referral process. We also recommended that the Director, Examination, SB/SE Division,
1) develop and implement a process to provide better assurance that mandatory referrals are
being made by examiners, 2) expand the Embedded Quality Review System and/or the National
Quality Review System to include evaluating how well the requirements for requesting specialist
assistance are met, 3) ensure that examiners are knowledgeable of and use the transfer-pricing
compliance process, and 4) implement plans to use specialists in screening corporate tax returns
with international features for examination.

Response
In their response to the report, IRS officials agreed with our recommendations and outlined
numerous corrective actions to address them. The Deputy Commissioner, International, will
provide all LMSB Division personnel with additional guidance that stresses the requirement of
making international referrals early in the examination process and re-emphasizes the need to
make a manual referral when prior or subsequent year returns are added to the examination
process. The Deputy Commissioner, International, will also complete an evaluation of the
automated referral process to identify and recommend solutions to ensure that international
examiners are involved in examinations with international features.
In the SB/SE Division, the Director, Examination will ensure, among other things, that the
Embedded Quality Review System Job Aids are updated to provide additional guidance on
requesting the assistance of a specialist. The Director will also publish materials and provide
training to enhance awareness of international issues. Finally, the Director will develop and
implement procedures to include international specialists in the SB/SE Division’s process for
screening corporate tax returns for examination. Management’s complete response to the draft
report is included as Appendix V.



                                                                                                   3
                    Actions Are Needed to Control Risks With International
                   Transactions Reported on Corporate Income Tax Returns



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                               4
                            Actions Are Needed to Control Risks With International
                           Transactions Reported on Corporate Income Tax Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Additional Steps Are Needed to Ensure That Specialists Are Involved
          in Determining the Scope and Depth of Corporate Examinations With
          International Features....................................................................................Page 4
                    Recommendations 1 through 3:.........................................Page 10

                    Recommendations 4 through 6:.........................................Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ...............................…….Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Examiner’s Administrative Lead Sheet ..............................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 18
         Actions Are Needed to Control Risks With International
        Transactions Reported on Corporate Income Tax Returns




                    Abbreviations

IRS           Internal Revenue Service
LIN           Large and Mid-Size Business Image Network
LMSB          Large and Mid-Size Business
LWIS          Large and Mid-Size Business Workload Identification System
SB/SE         Small Business/Self-Employed
SRS           Specialist Referral System
                         Actions Are Needed to Control Risks With International
                        Transactions Reported on Corporate Income Tax Returns




                                             Background

The compliance risk associated with international tax transactions continues to grow and to
present tax administration challenges as both small and large companies expand operations
across international boundaries and engage in cross-border transactions. As described in a
2006 Internal Revenue Service (IRS) announcement,1 reproduced in part below, the related
international tax issues2 associated with the expansion involve significant potential tax revenues
and involve complex arrangements between related companies operating in a multinational
environment.
      The Internal Revenue Service announced today that it has successfully resolved a transfer
      pricing dispute with Glaxo SmithKline (Americas) Inc. & Subsidiaries (GSK). This case,
      which is pending in the United States Tax Court, represents the largest tax dispute in the
      history of the Internal Revenue Service. Under the settlement agreement, GSK will pay the
      Internal Revenue Service approximately $3.4 billion, and will abandon its claim seeking a
      refund of $1.8 billion in overpaid income taxes, as part of an agreement to resolve the
      parties[sic] long-running transfer pricing dispute for the tax years 1989 through 2005.
      The agreement between GSK and the IRS brings to a conclusion a dispute dating back to
      the 1980s and involves adjustments to GSK’s tax years from 1989 through 2000. The Tax
      Court case concerns “transfer pricing,” an accounting method requiring that related
      parties engage in transactions at arm’s length to ensure the proper reporting of taxable
      income. GSK and the IRS have also reached agreement for tax years 2001 through 2005
      with respect to the transfer pricing issues arising in those years.
      The Tax Court dispute for years 1989-2000 involves intercompany transactions between
      GSK and certain of its foreign affiliates relating to various GSK “heritage”
      pharmaceutical products. Specifically at issue is the level of U.S. [United States] profits
      reported by GSK after making intercompany payments that took into account product
      intangibles developed by and trademarks owned by its U.K. [United Kingdom] parent, and
      other activities outside the U.S., and the value of GSK’s marketing and other contributions
      in the U.S. Under the settlement agreement, GSK has conceded over 60% of the total
      amount put in issue by the two parties for the years pending in Tax Court.
To address the challenges posed by international taxation, the IRS uses a variety of approaches to
identify and resolve tax issues as early as possible. Companies, for example, can work with the
IRS in processes designed to resolve potential areas of disagreement before filing their tax

1
 IR-2006-142, September 11, 2006.
2
 Tax issues are potential areas of controversy because, from the IRS’ perspective, they could represent
noncompliance.
                                                                                                          Page 1
                        Actions Are Needed to Control Risks With International
                       Transactions Reported on Corporate Income Tax Returns



returns. One such process that we have previously reported3 on is the Pre-Filing Agreement
program. Unlike a regular examination, during which issues are often resolved long after the tax
return has been filed, the objective of the Pre-Filing Agreement program is to resolve a
potentially contentious tax issue before the tax return is filed. The Advanced Pricing Agreement
program is another process that can be used in the pre-filing environment to avoid
multimillion dollar transfer-pricing disputes, such as the one initially discussed in this report.
Under the Advanced Pricing Agreement program, the IRS and participating companies agree on
the methods to determine the prices that related businesses charge each other when transferring
goods and services. To monitor compliance with the terms of the agreement, participating
companies submit annual reports to the IRS.
In the post-filing environment, where a significant number of high-risk international tax issues
are identified during the examination process, international specialists (specialists) are
responsible for evaluating the risk posed by the issues and, if necessary, examining them to help
ensure that companies operating in a multinational environment are reporting and paying the
proper amounts of taxes. Specialists are generally selected from the ranks of experienced IRS
examiners and specifically trained to take on the complexities of the international tax laws.
Organizationally, the approximately 417 specialists are assigned to the Large and Mid-Size
Business (LMSB) Division, even though the majority of corporate tax returns with international
features are filed with the Small Business/Self-Employed (SB/SE) Division.4
Specialists generally do not have overall responsibility for the examination of a tax return.
Therefore, examiners throughout the IRS are required to request their assistance when assigned
to examine a tax return with international features. To make requests for assistance faster and
less cumbersome, the IRS replaced a paper process with the Specialist Referral System (SRS) in
2002. The SRS allows examiners to request a specialist’s assistance online. It also provides
management with a tool for easily monitoring the timeliness of service requests.
This review was performed in the LMSB and SB/SE Divisions, respectively headquartered
in Washington, D.C., and New Carrollton, Maryland, during the period March through
August 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.


3
  The Pre-Filing Agreement Program for Large Businesses Has Yielded Modest Results (Reference
Number 2005-30-151, dated September 2005).
4
  The LMSB Division serves corporations with $10 million or more in assets, and the SB/SE Division serves all
other corporations.
                                                                                                          Page 2
                        Actions Are Needed to Control Risks With International
                       Transactions Reported on Corporate Income Tax Returns




                                     Results of Review

The contributions that specialists make to the IRS’ compliance efforts are substantial and
expected to increase. In Fiscal Years 2002 through 2006, IRS statistics show that specialists
nationwide spent about 1.2 million hours on corporate examinations and recommended
approximately $8.7 billion in adjustments to the taxable incomes and credits reported on
corporate income tax returns. This represents about 32 percent of the estimated $27.5 billion in
total recommended adjustments from corporate examinations during these years. It also
indicates that for each hour spent on a corporate examination, a specialist recommended about
$7,275 in adjustments. Comparatively, examiners in both the LMSB and SB/SE Divisions
recommended about $5,233 for each hour spent on a corporate examination during this
5-year period.
As reflected in Figure 1, the seemingly high return from the specialists’ efforts did not come at
the expense of increasing cycle time,5 providing evidence that their assistance is generally
requested and delivered in a timely manner. This is important because IRS executives, as well as
other stakeholders, have focused considerable attention on the need to reduce the time, costs, and
burdens associated with lengthy cycle times.
                       Figure 1: Cycle Time of Corporate Examinations
                                  in Fiscal Years 2002 Through 2006

                                    Average elapsed days from the date the corporate tax return
                                          was filed until the examination was completed
    Specialist assistance          Fiscal           Fiscal          Fiscal          Fiscal         Fiscal Year
    requested and delivered       Year 2002        Year 2003       Year 2004       Year 2005          2006
    No                                 1,235            1,431           1,281           1,269             1,031
    Yes                                1,211            1,336           1,148           1,027               934
    Difference                            24               95             133             242                97
Source: Our analysis of the IRS Audit Information Management System data.6

According to the new Service-wide Approach to International Tax Administration, specialists are
expected to play an even bigger compliance role in the coming years, as the IRS has determined
that businesses of all types and sizes are increasingly engaging in cross-border transactions as
participants in the expanding global economy. To meet the challenges associated with the tax
issues and business structures that are evolving with globalization, the IRS expects that the
specialists will be a critically important component in its plans for expanding international
5
  The IRS defines cycle time as the number of days that elapse between the dates tax returns are filed and
examinations are completed.
6
  The Audit Information Management System is used to monitor and report on tax returns in the examination stream.
                                                                                                         Page 3
                     Actions Are Needed to Control Risks With International
                    Transactions Reported on Corporate Income Tax Returns



expertise organizationally, improving examination coverage, increasing specialization, and
reducing the tax gap attributable to international transactions.
Despite the important contributions that specialists are making to tax administration, the IRS is
missing opportunities to take greater advantage of their expertise in determining the scope and
depth of corporate examinations with international features. The missed opportunities in the
SB/SE Division are a particular concern because this Division serves the majority of
corporations that report international transactions.
Additional Steps Are Needed to Ensure That Specialists Are Involved
in Determining the Scope and Depth of Corporate Examinations With
International Features
The Government Accountability Office Standards for Internal Control in the Federal
Government provides an overall framework for control processes that, in short, require
establishing procedures and practices that ensure actions are taken to curtail risks. We used these
standards in assessing the degree to which LMSB Division and SB/SE Division procedures and
practices provide reasonable assurances that international specialists have the opportunity to
evaluate the international transactions reported on tax returns in the examination stream.
Specifically, we reconciled to the SRS the 1,987 corporate tax returns that reported
transfer-pricing transactions and/or foreign tax credits exceeding a certain amount and were
listed in LMSB Division closed examination files for the period October 2005 through
December 2006. Although all the tax returns had been assigned to LMSB Division examiners
and each required a referral to a specialist, our reconciliation showed that referrals were not
made in 1,069 (54 percent) of the 1,987 tax returns.
To determine if a referral problem might exist in the SB/SE Division, we similarly reconciled to
the SRS the corporate tax returns containing the same characteristics that were listed in its closed
examination files for the same 15-month period. Our results showed that an even higher
percentage of required referrals were not made to international specialists. While the SB/SE
Division closed just 157 corporate tax returns with these international features during the period,
143 of these returns (91 percent) were not referred as required.
To provide assurances of the accuracy of the SRS, we reviewed the case files associated with a
judgmental sample of 32 tax returns that were included in our analysis. In three instances, the
SRS showed that a referral was not made, but documentation in the case file showed that the
examiner included the issue in the scope of the examination after a telephone conversation with a
specialist. Because none of the case files showed that the specialist actually reviewed the tax
return and/or the corporate records as required by IRS guidelines, we concluded that the SRS
accurately reflected that a referral was not made in these instances. We did not identify any
cases for which a referral was reflected in the SRS but was not in the case files reviewed.


                                                                                             Page 4
                        Actions Are Needed to Control Risks With International
                       Transactions Reported on Corporate Income Tax Returns



Of course, absent an examination by a specialist, we have no way of determining whether any of
the corporations that filed tax returns that were not referred avoided taxes that might have
otherwise been owed. Overall, the 1,212 tax returns that were not referred to an international
specialist (out of the 2,144 returns listed in the closed examination files for the period
October 2005 through December 2006) reflected foreign tax credits and transfer-pricing
transactions totaling more than $72 billion. In addition, the LMSB Division control processes
provide a greater level of assurance that specialists will have an opportunity to evaluate the
compliance risk associated with international transactions reported on tax returns than those in
the SB/SE Division.
An array of procedures and practices in the LMSB Division emphasize the
importance of specialist involvement in corporate examinations with international
features
Since the LMSB Division began operation in 2000, its control processes have emphasized the
importance of specialist involvement in corporate examinations with international features.
These controls include the Internal Revenue Manual,7 management directives, and the LMSB
Division quality measurement standards. One management directive issued in 2003, for
example, was part of a comprehensive transfer-pricing strategy coordinated with the Department
of the Treasury Office of Tax Policy that instructed examiners to request the transfer-pricing
practices from companies and to promptly refer the information to a specialist for evaluation of
the risk associated with the practices. The importance of obtaining and evaluating the
transfer-pricing practices from companies during examinations was subsequently expanded,
elaborated on, and incorporated in the Internal Revenue Manual.
The LMSB Division Quality Measurement System staff evaluate several hundred examination
cases each year and assess the degree to which examiners are complying with procedures for
involving specialists in examinations with international features. A primary purpose of the
evaluations review is to identify problem areas in the examination process so they can be
elevated to management for corrective action. In recent years, the LMSB Division has moved
away from a traditional, broad-based examination process to one that is focused on specific
high-risk tax issues. To support its limited issue-focused examination process, the LMSB
Division is using evolving technologies to develop and introduce new compliance tools, such as
the LMSB Image Network (LIN) system.
Introduced in Fiscal Year 2004, the LIN system is designed to take advantage of the efficiencies
offered by electronic filing by imaging paper returns filed with the LMSB Division and
delivering them to examiners electronically through an IRS Intranet site hosted by the Statistics



7
 The Internal Revenue Manual is an official compilation of procedures, instructions, and guidelines that govern the
operational features of the IRS; it includes guidance that examiners are required to follow for requesting the
assistance of specialists in examinations with international features.
                                                                                                            Page 5
                            Acfions Are Needed fo Confro/ Risks With lnfemationa/
                            Transactions Reported on Corporate Income Tax Returns



of Income Division.' The LIN system provides an electronic image that is made available for
assignment to LhdSB Division examiners via the LhISB Workload Identification System
(LlVIS).9 In 2005, the LMSB Division enhanced its referral capabilities by linking the LIVIS
with the SRS, so that requests for assistance from specialists are automatically generated.
Importantly, the enhancement is also intended to better ensure that specialists have the
opportunity to be involved in determining the scope and depth of examinations with international
features.
Despite the automated feature, the enhancement is leaving a large gap between the number of
referrals made to specialists and the number that should be made according to IRS procedures.
As summarized in Figure 2, we found that 257 (73 percent) of the 350 corporate tax returns in
the population analyzed were not referred as required after the link between the LIVIS system
and the SRS was established.
       Figure 2: Corporate Tax Returns W t h Transfer-Pricing Transactions and/or
       Foreign Tax Credits Exceeding $25,000 in the LMSB Division October 2005
                   Through December 2006 Closed Examination Flies
                     Referrals   tit   the poplihtion anabred                      1 Nzimber 1 Percetitage
    Retutns assigned to examiners .that required a referral to a specialist.       1
                                                                                   I
                                                                                       1,987   1
                                                                                               I
                                                                                                   100%
    Retutns assigned to examiners and referred to a specialist as required.            918         46%

                     Referrals befare Nitking the L FVIS system with the SRS
    Retutns assigned to examiners that required a referral to a specialist.            1,637       100%
                                                                                   I           I




                     Referrals after liiikiiig the L F t l S system with the SRS
    Retutns assigned to examiners .that required a referral to a specialist.
                                                                                   I
                                                                                       350     1
                                                                                               I
                                                                                                   100%
    Returns assigned to examiners and referred to a specialist as required.             93         27%
    Returns assigned to examiners and not referred to a specialist as required.        257         73%
                                                                                   I           I

Soltrce: Our cmulysis of the IRS Audit Irorrnation .\frniugement Systern, the L VfISsystem, and the SRS
Our analysis showed that a substantial majority (179 of 257) of the tax returns that were not
referred to a specialist involved examinations that were started in one tax year and e        o
other years when corporate tax returns were ordered by and fonvarded to examiners.


' This Division is responsible for collecting, analyzing, and disseminating information on Federal taxation for the
Department of the Treasur~rOffice of Tax Analysis, Congressional Committees, the IRS in its administration of tax
laws?other organizations engaged in economic and financial analysis, and the geneml public.
  The LWlS application is primarily used by analysts to identify and send retutns to first-line managers.
                                                                                                             Page 6
                       Acfiuns Are Needed tu C o n f d Risks Wifh Infemafiunaf
                       Transacfions Repurfed un Curprrrafe Income Tax Refurns




         To its credit, the LMSB Division recognize
automated feature and has issued guidance to examiners. The guidance, among other things,
instructs examiners to access the SRS online and to manually request the assistance of a
specialist in certain situations, such as when expanding examinations with international features
to other tax years.
Despite the guidance to examiners, there are other problems with the 257 tax returns that were
not referred in the population we analyzed. Specifically, we found a code missing in IRS
comp~~ter  records that is used to identi@ tax returns with international features. This might have
caused 26 of the 257 tax returns to not be referred as required. Finally, we were unable to
determine n7hy 50 other tax returns were not referred, even though they collectively reported
transfer-pricing transactions and foreign tax credits totaling $1 billion.
While these other problems might indicate deficiencies in the LIVIS system, the SRS, or the link
between the two systems, the work needed to make that determination was beyond the scope of
our review. We believe, however, that it would be useful for the LMSB Division to incorporate
our observations in an evaluation of the issue with the personnel who were involved in planning
and implementing the automated feature. This kind of internal evaluation would be in line with
the Government Performance and Results Act of 19931° in terms of identifying improvement
options and might help lay a stronger foundation to take full advantage of the efficiencies offered
by electronic filing.
Corporations served by the SB/SE Division that are enclaqincl in international
transactions are far less iikeiv to be examined than those served by the LMSB
Division
In contrast to the control processes in the LMSB Division, those in the SBi'SE Division provide
less assurance that specialists will have an opportunity to evaluate the risk posed by international
transactions reported on corporate tax returns. As a result, significant international tax issues
that should be examined can be missed, and implementation of the Service-wide Approach to
International Tax Administration could be undermined.
We found that neither the SB/SE Division Embedded Quality Review System'' nor its National
Quality Review System" specifically evaluate and report on the extent to which its examiners
comply with requirements for involving specialists. In addition, examiners have not recei~~ed
written instructions on carrying out the transfer-pricing compliance process. The SBi'SE


l o Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C.? 3 1 U.S.C.? and
39 U.S.C.).
''  The Embedded Quality Review System allows field managers to provide timely feedback to individual employees
through performance case re\ 'iews.
                            '

" The National Quality Review System conducts closad case reviews and provides quality measurement results for
the SB/SE Division.
                                                                                                       Page 7
                        Acfiuns Are Needed fu Cunfruf Risks Wifh /nfemationaf
                        Transacfiuns Reported on Coporate /ncume Tax Refurns




Division instead primarily relies on first-line managers to ensure that the examiners they
supervise follow the requirements for involving specialists in examinations with international
features. These managers can also have broad spans of control and many other administrative
demands on their time.
Although the first-line managers we surveyed were aware of the requirement to request the
assistance of a specialist, some did not always follow the requirement because they saw no
potential issues worth examining. Other first-line managers stated that they did not want to
involve an "outside" specialist due to concerns that the process could be time consuming and
thereby delay closing the examination. Our analysis of IRS examination closed case data,
however, indicates that there is little justification for this concern. As discussed earlier,
corporate examinations with a specialist involved less cycle time than those without a specialist.
In addition, examinations with the involvement of a specialist resulted in significantly greater
recommended additional assessments than those with no specialist involvement.
In discussions about control processes, SB/SE Division officials noted that both the Embedded
Quality Review System and the National Qudity Review System capture information on the
degree to which examiners are complying with procedures for involving all types of IRS
specialists in examinations. They explained that, besides international specialists, there are
situations in which examiners are required to request the assistance of other IRS examination
specialists. These other specialists include, among others, economists, engineers, and computer
audit specialists. The officials also noted that SB/SE Division controfs include requiring
examiners to complete an Administrative Lead Sheet13to include in examination case files. The
Administrative Lead Sheet is a checklist designed to solicit answers to important procedural and
process questions, such as whether specialists were involved in examinations when required.
We agreed to re-examine the SB/SE Division quality review systems and to review the
documentation on the Administrative Lead Sheet in our sample examination case files. As
SB/SE Division ofijcials indicated, we found that both the Embedded Quality Review System
and the National Quality Review System have the capability to report on whether procedures for
involving IRS specialists in general are followed in the examination process. However, neither
System reports on the extent to which examiners comply with the specific requirement for
involving international specialists. As a result, problems with involving international specialists
in examinations could go undetected if the procedures for involving other specialists are
followed. Further, the decision to evaluate whether examiners are following the procedures for
involving international specialists in examinations is left to the discretion of the first-line
manager performing the review under the Embedded Quality Review System.




l 3 See Appendix IV for a reproduction of the Administrative Lead Sheet that was available to examiners on the IRS
Intranet in March 2008.
                                                                                                           Page 8
                         Actions Are Needed to Controf Risks Wifh intemationa/
                         Transactions Reported on Corporate income Tax Returns



                                                                     The Lead Sheet solicited
answers about whether requests for various specialists were made as required and contained




be updated with the current Internal Revenue hdanual section1:'on involving international
specialists in examinations, which was changed in 2002, and does not require first-line managers
to sign the Lead Sheet certifying that the actions were properly completed. As we have
previously reported,15manager certifications can be an important control component to hold
personnef accountable for ensuring that required procedwes are completed properly.
On a larger scale, the limited number of corporate tax returns reporting foreign tax credits andi'or
transfer-pricing transactions found in the SB!SE Division's closed examination files raises
questions about how well the Division identifies and selects for examination corporate tax
returns with international features. IRS statistics show that the SB/SE Division annually receives
almost twice as many corporate tax returns reporting international transactions as the
LhISB Division. However, as shown in Figure 3, the corporate tax returns received by the
SB/SE Division are far less likely to be examined, even when significant dollars are invohed in
the transactions.
   Figure 3: Examination Coverage for Corporations Reporting Transfer-Pricing
    Transactions on Tax Returns Filed in Processing Years 2003 Through 2004


                                                                                -
                                                                                $1 million or More -

                                                   . ,
                                                                      Returns received
                                                                                                               ,
                                                                                                Returns examined
                                                                                                         cv'
 SB/SE
 LMSB
                        21,253
                          3-306
                                                126 (I?/b)
                                                436 (13?/b)
                                                    . ,           I
(4)- These figures include examinations of corporate tax returns that were completed or in process as of
                                                                                                               .    ,

November 30.2007.
Sotlrce. Our a?~aIysisof the Bzoi?~essRetzlt-lu Traluaction ~ i l e m' ~~ the
                                                                          d A d i t Ir?formutio?~
                                                                                                .\fa~~agementSystem



'"he section referenced on the Lead Sheet should be revised from an Internal Revznue Manual pertaining to
classification of international feature returns to referral criteria and procedures.
    The Strategy to Re-emnph,size Penalties in C o r p r a f eE.~a?nirlutiorls Cotlld Be E r ~ h n c e d(Reference
Number 2005-30-123, dated August 2005).
 l6 The Business Returns Transaction File contains information transcribed from taxrctums filed by corporations,
partnerships, and other business entities.
                                                                                                                   Page 9
                     Actions Are Needed to Control Risks With International
                    Transactions Reported on Corporate Income Tax Returns



Due to time constraints, we did not expand our work to include determining the various factors
that might be contributing to the low number of examinations the SB/SE Division is conducting
of corporate returns with international features. However, we did discuss the issue with a
high-ranking SB/SE Division official who told us that plans are underway to improve the way in
which corporate returns with international features are identified and selected for examination.
The plans include using special audit codes to identify returns with specific international features
and having specialists routinely participate in evaluating the compliance risk on the returns
identified by the special audit codes before examinations are initiated. These plans, coupled with
actions to strengthen the control processes, should increase the involvement of specialists in the
examination process. However, until these plans are in place and the actions are completed, the
IRS is at risk of missing significant international tax issues that should be examined.
Recommendations
Recommendation 1: The Deputy Commissioner, International, should re-emphasize to
LMSB Division examination personnel the situations that require using the SRS to manually
request the involvement of a specialist.
       Management’s Response: IRS management agreed with this recommendation. The
       Deputy Commissioner, International, will issue a memorandum to all LMSB Division
       personnel reminding them of the requirement to make an international referral early in
       the examination process. The memorandum will also remind examiners that a manual
       referral is necessary when prior or subsequent year returns that meet the mandatory
       referral criteria are added to the examination process.
Recommendation 2: The Deputy Commissioner, International, should initiate an evaluation
to help identify and document the full range of challenges the LMSB Division faces with
automating the specialist referral process. The evaluation should include the observations
identified in this report and provide solutions to better ensure that specialists are involved in
determining the scope and depth of examinations with international features.
       Management’s Response: IRS management agreed with this recommendation. The
       Deputy Commissioner, International, will complete an evaluation of the automated
       referral process to identify and recommend solutions to ensure that international
       examiners are involved in examinations with international features.
Recommendation 3: The Director, Examination, SB/SE Division, should develop and
implement a process to provide better assurance that examiners are requesting the assistance of
specialists. This could be accomplished by ensuring that the Administrative Lead Sheet refers
examination personnel to the correct Internal Revenue Manual sections for guidance and requires
first-line managers to certify that procedures were properly followed.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination, SB/SE Division, will ensure that the Administrative Lead Sheets

                                                                                            Page 10
                     Actions Are Needed to Control Risks With International
                    Transactions Reported on Corporate Income Tax Returns



       reflect the appropriate Internal Revenue Manual sections for guidance and that first-line
       managers review the Lead Sheets for international procedures during their scheduled
       reviews of cases.
Recommendation 4: The Director, Examination, SB/SE Division, should coordinate with
other decision makers in expanding the Embedded Quality Review System and/or the National
Quality Review System to include evaluating how well the requirements for requesting specialist
assistance are followed, so that problems can be identified, evaluated, and addressed.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination, SB/SE Division, will ensure that the Embedded Quality Review
       System Job Aids are updated to include additional guidance to determine if the
       appropriate steps were taken to request a specialist in cases selected for review.
Recommendation 5: The Director, Examination, SB/SE Division, should ensure that
examiners are knowledgeable of and use the transfer-pricing compliance process.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination, SB/SE Division, will ensure that examiners’ awareness of
       international issues is enhanced by 1) publishing an article concerning international
       referral criteria and procedures in the Technical Digest and 2) including a mandatory
       topic in the Fiscal Year 2009 Revenue Agents’ Continuing Professional Education.
Recommendation 6: The Director, Examination, SB/SE Division, should follow through and
implement plans to use specialists in the tax return screening process to increase the number of
corporate tax returns with international features that are identified and selected for examination.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination, SB/SE Division, will coordinate with the Director, International
       Compliance, Strategy, and Policy, LMSB Division, to develop and implement procedures
       designed to include LMSB Division international specialists in the SB/SE Division
       corporate tax return classification process.




                                                                                           Page 11
                        Actions Are Needed to Control Risks With International
                       Transactions Reported on Corporate Income Tax Returns



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our objective was to assess the timeliness of requesting and delivering the assistance of
international specialists (specialists) in corporate examinations that have international features.
During the review, we relied on IRS databases. Although we did not conduct audit tests to
determine the accuracy and completeness of the information in any of the databases, we checked
the reliability of the information against source documents. Our checks are described below and
did not identify any material errors in the information used from the databases. To meet our
objective, we:
I.      Used the Government Accountability Office Standards for Internal Control in the
        Federal Government to assess the policies, procedures, and practices the IRS had
        established for ensuring that the assistance of specialists is requested and delivered in a
        timely manner.
II.     Used the IRS Audit Information Management System, Business Returns Transaction File,
        and Foreign Information System1 in conjunction with the SRS2 to evaluate statistics from
        corporate tax returns reporting transfer-pricing transactions and/or foreign tax credits.
III.    Reviewed a judgmental sample3 of 32 of the 2,144 corporate cases (1,987 LMSB
        Division returns and 157 SB/SE Division returns) containing transfer-pricing transactions
        and/or foreign tax credits that were closed by examiners between October 1, 2005, and
        December 31, 2006, to evaluate whether required procedures were followed and the
        information in IRS databases was reliable enough to meet our objective.
IV.     Identified challenges to ensuring that tax returns with international features selected for
        examination are screened for potential international tax issues by interviewing a
        judgmental sample of 47 of the 185 first-line managers who supervised examiners that
        had closed 1 or more corporate tax returns from the examination stream with
        transfer-pricing transactions and/or foreign tax credits greater than a certain amount.


1
  The Audit Information Management System is used to monitor and report on tax returns in the examination stream.
The Business Returns Transaction File contains information transcribed from tax returns filed by corporations,
partnerships, and other business entities. The Foreign Information System contains information transcribed from the
Information Return of U.S. Persons With Respect to Certain Foreign Corporations (Form 5471) and Information
Return of a 25% Foreign-Owned U.S. Corporation or a Foreign Corporation Engaged in a U.S. Trade or Business
(Form 5472).
2
  The SRS allows examiners to request a specialist’s assistance online. It also provides management with a tool for
easily monitoring the timeliness of service requests.
3
  Judgmental sampling techniques were used for all samples to conserve time and resources.
                                                                                                         Page 12
                    Actions Are Needed to Control Risks With International
                   Transactions Reported on Corporate Income Tax Returns



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Frank Dunleavy, Director
Robert Jenness, Acting Audit Manager
Timothy Greiner, Lead Auditor
Earl Burney, Senior Auditor
Stanley Pinkston, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 13
                   Actions Are Needed to Control Risks With International
                  Transactions Reported on Corporate Income Tax Returns



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, International SE:LM:IN
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Field Specialists SE:LM:FS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                      Actions Are Needed to Control Risks With International
                     Transactions Reported on Corporate Income Tax Returns



                                                                              Appendix IV

              Examiner’s Administrative Lead Sheet

                                 Administrative Lead Sheet
Overview of the Lead Sheet Workpaper System                        Yes   No   N/A   Reference
Pre-Audit
 If applicable, follow TEFRA procedures (IRM 4.31.1.3)
 Is collectibility an issue? (IRM 4.10.2.4.3 & 4.20.2)
 Use “Revenue Agent Plan to Close” Check Sheet                                        110

Power of Attorney (POA) (IRM 21.3.7.2) – ATTACH COPY OF POA TO RETURN
 Determine if valid POA exists (CC CFINK)
 Enter required information on POA and date stamp
 Route or Fax POA to CAF Unit within 5 days

Initial Taxpayer Contact (IRM 4.10.2.7 & IRM 4.10.2.8)
 Use Initial Taxpayer Contact Check Sheet                                             120
 RRA ‘Separate Notice Requirements (IRM 4.10.1.6.8)
 Unlocatable Taxpayer (IRM 4.10.2.7.2 & 4.10.2.8.6)

Initial Appointment
 Use Initial Appointment Agenda                                                      125-1
 Issue Initial Appointment Agreement (Optional)

Abusive Tax Avoidance Transactions (ATAT) (IRM 4.32)
 Probe for participation in Domestic and Offshore Abusive Tax
  Schemes and Listed Transactions

Referrals (IRM 4.10.2.6.7) Use Specialist Referral System
 Employment Tax , Employee Plans (IRM 4.10.5.9(1))
 Engineers (IRM 4.3.16, Section 1.5), International (IRM 4.60.5)
 Excise Tax (IRM 4.10.5.8(3)), Economist (IRM 4.49.1)
 Computer Assisted Audit (IRM 4.47)
 Estate and Gift
 TEGE (IRM 4.32.2)

Statute of Limitations (IRM 4.10.2.2.1)
 Statute Extension (IRM 25.6.22)
 Provide and discuss Publication 1035


                                                                                      Page 15
                      Actions Are Needed to Control Risks With International
                     Transactions Reported on Corporate Income Tax Returns




                                 Administrative Lead Sheet
Overview of the Lead Sheet Workpaper System                              Yes   No   N/A   Reference
Date stamp original and duplicate copy of extension forms
Forward extension forms and case file to group manager
Attach original extension form to tax return and return signed copy of
consent to taxpayer with Letter-929

Issue Resolution (IRM 4.10.7.5)
 Consider partial agreement for unagreed cases
 Corrected Reports (IRM 4.10.8.12)
 Special Reports and Forms (IRM 4.10.8.13)
 Researching Tax Law (IRM 4.10.7.2)
 Offer Fast Track Mediation for unagreed issues Pub 3605
 Offer Manager’s Conference
 Provide to taxpayer/representative Pub 3498 with initial
 RAR or 30-Day letter (send to each spouse individually)
 Previously issued RAR’s, UNSIGNED (IRM 4.10.8.11)                                        105-1.3

Payment (IRM 4.20.3 & 4.23.10)
 Solicit Payment (Full, Partial, Installment Agreement)
 Coordinate with Collection if applicable

Additional Procedural Items
 Information Report (Form 5346; IRM 4.10.8.13)
 IRC 6404(g), Suspension of Interest
 Innocent Spouse Provisions (IRM 4.10.1.6.4)
 Third Party Contacts (IRM 4.10.1.6.12)
 Summons (IRM 25.5, Summons Handbook)
 Claims for Refund (IRM 4.10.8.8)
 Nonfilers (IRM 4.10.6.8.3 & 4.10.5.2.5)
 Whipsaw Issues (IRM 4.10.7.4.9)
 No-Change Report (IRM 4.10.8.2)
 Unagreed Reports, T-Letter, etc. (IRM 4.10.8.10)
 Rules of Practice Before the IRS (Circular 230)
 Referral to the Office of Professional Responsibility
 (IRM 20.1.6.2.1 & Form 8484, Report of Suspected Practitioner
 Misconduct)
 SBSE Lead Development Center – referral of Promoters and
  Preparers of Abusive Schemes (Requires manually prepared referral
  form IRM 4.32.2)
 Inadequate Records Notice (IRM 4.10.8.16)




                                                                                            Page 16
                         Actions Are Needed to Control Risks With International
                        Transactions Reported on Corporate Income Tax Returns




                                    Administrative Lead Sheet
  Overview of the Lead Sheet Workpaper System                   Yes   No   N/A   Reference
   Was return prepared for compensation?
   (If yes, complete remaining items)
   Identification penalties required?
   Did preparer negotiate refund?
   Did taxpayer receive a copy of return?
   LMSB/Office Tax Shelter Administration (IRM 4.32.2)

  Case File Assembly (IRM 4.10.9.6)
   Form 3198 (IRM 4.10.3.16.5)
   Form 5344 (IRM 4.10.8.16.1)
   Complete EOAD Data
   Move case to Fileserver

IRM = Internal Revenue Manual.
Source: IRS Intranet, March 2008.




                                                                                   Page 17
      Actions Are Needed to Control Risks With International
     Transactions Reported on Corporate Income Tax Returns



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 18
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 19
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 20
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 21
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 22
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 23
 Actions Are Needed to Control Risks With International
Transactions Reported on Corporate Income Tax Returns




                                                     Page 24
